CASE No.

In The Supreme Court of the United States
BART POSEY, SR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Sixth Circuit
PETITIONER’S APPENDIX
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

I. TABLE OF
CONTENTS

APPENDIX A ................................................1A
(May 5, 2020, Order Denying 28 U.S.C. §
2255 Motion)

APPENDIX B ..............................................34A
(October 30, 2020, Order Denying Certificate
of Appealability)

1A
APPENDIX A
Posey v. United States
United States District Court
for the Middle District of Tennessee
Nashville Division
May 5, 2020, Filed
No. 3:20-cv-00121
RICHARDSON, District Judge.
MEMORANDUM OPINION
Petitioner, Bart Sidney Posey, Sr., commenced this
action by filing a pro se Motion Under 28 U.S.C. §
2255 To Vacate, Set Aside, or Correct Sentence
(Doc. No. 1, "Petition"). Via the Petition, he seeks
vacatur of his plea of guilty in his underlying
criminal case (No. 3:13-cr-00119). He thus also
necessarily seeks vacatur of the 168-month
sentence he received.
For the reasons stated herein, the Petition will be
DENIED without an evidentiary hearing, and this
action will be DISMISSED.
FACTUAL BACKGROUND
On June 26, 2013, an Indictment was filed in this
district against Petitioner and three codefendants, thus commencing his underlying

2A
criminal case (No. 3:13-cr-00119).1 Petitioner was
charged in thirty-seven of the Indictment's fiftyseven counts, i.e., two counts of conspiracy in
violation of 18 U.S.C. § 371, ten counts of mail
fraud in violation of 18 U.S.C. § 1341, fifteen
counts of wire fraud in violation of 18 U.S.C. §
1343, six counts of embezzlement from a health
care benefit program in violation of 18 U.S.C. §
669, and four counts of money laundering in
violation of 18 U.S.C. § 1957.2 (R. 1). The crux of
the allegations, as the Government states
accurately enough, was that Petitioner "sold and
caused others to sell fraudulent health insurance
plans to unsuspecting consumers across the
United States. . . . Posey and his co-conspirators
ran the operation like a Ponzi scheme - paying off
some victims' medical claims with new victim
money." (Doc. No. 11 at 2). Petitioner retained
Peter Strianse ("Petitioner's counsel" or "his
counsel"), a veteran criminal-defense attorney
who, by any measure, already had a wealth of
experience in defending white-collar and many
other kinds of criminal cases in this Court. With
his counsel accompanying him, Petitioner made
his initial appearance on July 1, 2013 and was
released on bond. (R. 10).
It is fair to say that the case dragged on for years,
based on, among other things, reportedly a large
volume of discovery to review. Finally, the case
approached what appeared to be a more or less
seemingly firm trial date of January 16, 2018. As
it did, on November 5, 2017, Petitioner's co-

3A
defendant and ex-wife, Angela Posey, pled guilty
to a Superseding Information charging a single
count of misprision of a felony, which greatly
reduced her exposure, pursuant to an unsealed
plea agreement. (R. 303). In that plea agreement
(R. 305), she agreed to cooperate, including by
testifying at trial if called to do so. (Id. at 9-11).
A pretrial conference was held in Petitioner's case
on December 29, 2017. The parties discussed
various issues typically addressed at a criminal
pretrial conference. In addition, there was a
particular colloquy involving the Court and
counsel for each side that underlies the Petition in
its entirety.
Each party has quoted at some length the district
judge's specific comments at the December 29
pretrial conference on which the Petition is
entirely based. Suffice it to say that the district
court inquired about the timing of the
(Government's) last plea offer, indicated her
interest in making plea negotiations more fruitful,
encouraged Petitioner's counsel to make a
counteroffer, opined that Petitioner's refusal to
approve any of the counteroffers his counsel had
formulated was "short-sighted," encouraged
Petitioner's counsel to continue to speak to
Petitioner "given his possible exposure in this
case," noted the maximum prison term for the
various counts of the Indictment, opined that
Petitioner was facing "a lot of time" and the
prospect of numerous Government witnesses

4A
against him at trial, and expressed confidence that
Petitioner's counsel had already been "very
realistic" with Petitioner "about his exposure to
being convicted for something out of all these
counts, something." (R. 445 at 68-70).
Almost three weeks later, on January 16, 2018,
Petitioner pled guilty to two counts pursuant to a
written plea agreement (R. 345) that he had
reached with the Government. Consistent with the
plea agreement, he pled guilty to Count Six,
charging mail fraud, and to Count Forty-Five,
charging theft from a health care benefit program,
with the parties contemplating dismissal of the
other thirty-five counts at sentencing. (Id. at 1-2).
The plea agreement took care to document that
Petitioner's entry of a guilty plea, and entry into
the plea agreement, were being done voluntarily.
On its first page, the plea agreement stated
"defendant agrees to enter a voluntary plea of
guilty to Counts Six and Forty-Five of the
indictment...." (Id. at 1). On the second page, it
stated "[t]his plea agreement is entirely voluntary
and represents the entire agreement between the
United States Attorney and defendant regarding
defendant's criminal liability in case 3:13-cr00119." (Id. at 2). And its last statement above
Petitioner's signature stated, "I understand this
Plea Agreement, and I voluntarily agree to it." (Id.
at 13).
Likewise, the plea agreement stated that
Defendant understood various trial rights. (Id. at

5A
2-4). One was his right to a jury trial: "If defendant
persisted in a plea of not guilty to the charges
against him, he would have the right to a public
and speedy trial. Defendant has a right to a jury
trial, and the trial would be by a judge rather than
a jury only if defendant, the government, and the
Court all agreed to have no jury." (Id. at 2).
Another was the presumption of innocence; the
plea agreement described the Government's
burden of proof (beyond a reasonable doubt) at
trial and the fact that Defendant could not be
found guilty unless all jurors unanimously agreed
that the Government met had met that burden.
(Id. at 3). It likewise described other rights
Defendant would enjoy at trial.
The plea agreement also provided that "Defendant
will plead guilty because he is in fact guilty of
charges contained in Counts Six and Forty-Five of
the indictment. In pleading guilty, defendant
admits the following facts and that those facts
establish his guilt beyond a reasonable doubt[.]"
(Id.) The plea agreement then laid out facts
regarding the nature of the scheme and
Petitioner's role in it. (Id. at 4-6). Among other
things, it noted that Petitioner admitted that he
(and his co-conspirators) engaged "widespread
fraud to dupe consumers looking for health
insurance," accomplished by "sell[ing] fraudulent
health insurance plans to unsuspecting consumers
across the United States." (Id. at 4). It further
stated that Defendant admits: that he was "the
leader/organizer of the fraudulent scheme," (id.);

6A
that he "knowingly and willfully embezzled from a
health care benefit program $588,539.75 in victim
premium money to pay off a personal mortgage,"
(id. at 6); and that the "the fraudulent scheme
caused a total loss of $6,524,888.86" (id.).
In its final paragraph, as quoted in part above, the
plea agreement stated, "I hereby agree that I have
consulted with my attorney and fully understand
all rights with respect to the pending indictment .
. . . I have read this Plea Agreement and carefully
reviewed every part of it with my attorney. I
understand this Plea Agreement, and I voluntarily
agree to it." (Id. at 14).
At the outset of the plea hearing on January 16,
2020, Petitioner answered in the affirmative when
asked by the district judge whether he understood
that "everything you say in court today is under
oath and could be used against you in a
prosecution for committing perjury or making a
false statement." (R. 438 at 2-3). He noted that he
was 50 years old and a high school graduate (and,
thus, presumably able to read with some
proficiency). (Id. at 3). He noted that he had gone
over the indictment in detail with his counsel, and
that he understood the charges against him. (Id. at
3-4, 9-10). Petitioner also noted that he was
satisfied with his counsel, with whom, Petitioner
confirmed, he had discussed the facts of the case,
possible defenses, the elements of the charges, and
whatever investigation Petitioner wanted his
counsel to do. (Id. at 10). The district judge went

7A
over the maximum penalties (and other possible
consequences) on the charges, and Petitioner
affirmed his understanding of that. (Id. at 10-12).
She likewise went over his trial rights with him,
and he affirmed that he understood them and the
fact that he would be giving them up by pleading
guilty. (Id. at 12-13).
The district judge then turned to the plea
agreement (and plea petition). Petitioner affirmed
that he had read them and understood them. (Id.
at 13). The following colloquy then ensued:
THE COURT: In pleading guilty, you are
admitting the facts set out on pages 4 through 6 of
this plea agreement and that those facts establish
your guilt beyond a reasonable doubt. Have you
read those facts very carefully and are you
prepared to admit that they are true?
THE DEFENDANT: Yes, ma'am.
(Id. at 14). The district judge then walked through
the plea agreement, one provision after another,
and Defendant confirmed that this was his
understanding of the plea agreement. (Id. at 19).
The following colloquy then ensued:
THE COURT: Has anyone put any kind of
pressure on you, psychological or physical, to get
you to plead guilty?
THE DEFENDANT: No, ma'am.

8A
(Id. at 19-20). Very soon thereafter, the following
colloquy ensued:
THE COURT: Is your mind clear and you feel like
you know what you're doing?
THE DEFENDANT: Yes, ma'am.
THE COURT: I'm going to ask all parties to
execute the documents and pass them forward,
please.
MR. STRIANSE: Your Honor, Mr. Posey has
executed the petition to enter a plea of guilty and
the attached plea agreement here in open court.
(Id. at 20).
Consistent with Petitioner's counsel's statement
here, Petitioner indeed signed at the end of the
plea agreement, and also initialed every page. (R.
345). An FBI Special Agent then provided the
factual basis, reading it virtually verbatim as set
forth in the plea agreement. (Id. at 21-24). Then,
after a point or two of clarification from
Petitioner's counsel, the following colloquy ensued:
THE COURT: Mr. Posey, you heard the facts read
by the agent and your lawyer's clarification. With
that clarification of that one paragraph, did the
agent accurately inform the Court of what you did
with regard to Counts Six and Forty-five?

9A
THE DEFENDANT: Yes, ma'am.
(R. 438 at 27).
The district judge then advised Petitioner of the
elements of the counts to which he was pleading
guilty and asked Petitioner whether he thought
the Government could have proven those elements
had the case gone to trial; Petitioner answered in
the affirmative. (Id. at 27-28). She then asked him
whether he was pleading guilty to Counts Six and
Forty-Five, and he responded in the affirmative;
she then asked him whether he did so because he
was in fact guilty of those two counts, and he again
responded in the affirmative. (Id. at 28). The
district judge accepted the plea of guilty because,
among other things, "[h]e's aware of the plea
agreement made on his behalf and has offered to
plead guilty voluntarily." (Id. at 29).
Petitioner was sentenced more than ten months
later, on November 20, 2018. (R. 422). At the
sentencing hearing, Petitioner testified (under
oath) at considerable length. Once again, he
admitted his crimes. Among other things, he
admitted that he engaged in a widespread fraud
from January 2008 through March 2010. (Id. at
134). He admitted that the aim of the fraud was to
dupe consumers looking for health insurance. (Id.
at 136). He admitted that he fraudulently
represented to victim consumers that the
insurance companies he told consumers were
backing his so-called health insurance were either

10A
fake or not authorized to do business. (Id. at 139140).
Petitioner later exercised his right to make an
allocution, in which he stated, in pertinent part:
I have had nine years to think about what
transpired at my office in Springfield, Tennessee.
I can't go back and change the decisions I made
prior to 2008, but I want to say I am sorry to the
victims. I am sorry to this Court, and I am sorry to
my family.
(Id. at 174). His contrition was hardly complete,
however; indeed, the Government thought he was
equivocating to a degree that he should be denied
a two-level reduction under the Sentencing
Guidelines for acceptance of responsibility. But his
counsel fought for Petitioner to receive that twolevel downward adjustment, arguing that
Petitioner
"has
certainly
shown
enough
acceptance of responsibility." (Id. at 194). He
succeeded;
ultimately,
although
finding
Petitioner's acceptance "borderline" because he
was trying to blame others, the Court did grant a
two-level
reduction
for
acceptance
of
responsibility. (Id. at 200-201). Thus, Petitioner
received the benefit of this downward adjustment
he sought, precisely because he was deemed to
have sufficiently adhered to the admission of guilt
made at his plea hearing.
Petitioner received a sentence of, among other
things, 168 months' incarceration. (Id. at 206).

11A
Even though this represented a downward
variance from the court-determined guideline
range of 188-235 months (id. at 202), Petitioner
has strongly suggested that he was shocked by the
length of the sentence and that he does not like
how things turned out. (Doc. No. 1-1 at 2).
Unwittingly, perhaps, he has thereby admitted a
possible motive for changing the story he told in
his plea agreement and at the plea hearing
regarding the voluntary, properly advised, and
unpressured nature of his plea.
LEGAL STANDARD
To prevail on a Section 2255 motion, a petitioner
must demonstrate that the court imposed the
sentence in violation of the Constitution, the court
was without jurisdiction to impose such a
sentence, the sentence was more than the
maximum sentence authorized by law, or the
sentence is otherwise subject to collateral attack.
See 28 U.S.C. § 2255 (2018).
Section 2255 requires "a hearing on such
allegations unless the motion and the files and
records of the case conclusively show that the
prisoner is entitled to no relief." Fontaine v. United
States, 411 U.S. 213, 215, 93 S. Ct. 1461, 36 L. Ed.
2d 169 (1973) (internal quotation marks omitted);
Ray v. United States, 721 F.3d 758, 760-61 (6th
Cir. 2013); see also Dagdag v. United States, No.
3:16-cv-364-TAV, 2019 U.S. Dist. LEXIS 91410,
2019 WL 2330274, at *1 n.1 (E.D. Tenn. May 31,

12A
2019) (internal quotation marks omitted) (citing
Arredondo v. United States, 178 F.3d 778, 782 (6th
Cir. 1999)) ("[W]here the record conclusively shows
that the petitioner is entitled to no relief, a hearing
is not required.").
A petitioner is not entitled to an evidentiary
hearing if he has not alleged any facts that, if true,
would entitle the petitioner to federal habeas
relief. See McSwain v. Davis, 287 F. App'x 450, 458
(6th Cir. 2008). Even when material facts are in
dispute, an evidentiary hearing is unnecessary if
the petitioner is conclusively entitled to no relief.
See Amr v. United States, 280 Fed. Appx. 480, 485
(6th Cir. 2008) ("Stated another way, the court is
not required to hold an evidentiary hearing if the
petitioner's allegations cannot be accepted as true
because they are contradicted by the record,
inherently incredible, or conclusions rather than
statements of fact."); accord Arredondo, 178 F.3d
at 782. The decision whether to hold an
evidentiary hearing is one committed to the sound
discretion of the district court. Huff v. United
States, 734 F.3d 600, 607 (6th Cir. 2013) ("A
decision not to hold an evidentiary hearing on a
motion for relief under 28 U.S.C. § 2255 is
reviewed for abuse of discretion.").
The applicable rules address what the district
court may (and must) consider in determining
whether to order an evidentiary hearing, where (as
here) the motion is not dismissed under Rule 4(b)
based on the district court's initial review:

13A
If the motion is not dismissed, the judge must
review the answer, any transcripts and records of
prior proceedings, and any materials submitted
under Rule 7 to determine whether an evidentiary
hearing is warranted.
Rule 8(a), Rules Governing Section 2255
Proceedings. As suggested, Rule 7 permits
expansion of the record with additional materials
relevant to the motion, such as letters predating
the filing of the motion, documents, exhibits,
answers under oath to interrogatories, and
affidavits. Rule 7(b), Rules Governing Section
2255 Proceedings. In this case, the record has been
expanded with sworn statements from Petitioner,
Petitioner's brother, and Petitioner's counsel.
Having carefully reviewed the record in
Petitioner's underlying criminal action, as well as
the filings in this action, the Court finds that there
are no evidentiary issues to be resolved and that it
is unnecessary to hold an evidentiary hearing to
resolve Petitioner's claims. Therefore, the Court
will dispose of the Petition without a hearing, as
the record conclusively establishes that Petitioner
is not entitled to relief on his claims for the reasons
set forth herein.
DISCUSSION
Petitioner asserts two grounds for relief. Each is
without merit.

14A
I. GROUND ONE
In Ground One, Petitioner claims that his "guilty
plea was induced by improper judicial
participation In plea Negotiations, a violation Of
Fed. R. Crim. P. 11(c)(1) and Posey's right to due
process." (Doc. No. 1 at 4; Doc. No. 10 at 6).
There is no question that the district judge
participated in a discussion with counsel about the
desirability of plea negotiations. That is not to say
that the district judge participated in plea
negotiations. After all, it is one thing to tell counsel
for the defendant (in the defendant's presence)
that it would be prudent to engage in plea
negotiations with the Government; it is quite
another to be involved in any ensuing discussions
themselves by, for example, proposing terms for a
plea bargain or commenting on terms previously
proposed by one side or the other. However, the
Court certainly understands the good-faith basis
for the claim that what happened at the status
conference constituted participation by the district
judge in plea negotiations; the Court does not
begrudge Defendant his assertion that the district
judge crossed the line here.
Accordingly, the Court will assume arguendo that
there was judicial participation in plea
negotiations in violation of Rule 11(c)(1)
(hereinafter referred to as a "Rule 11(c)(1)
participation violation"). However:

15A
Rule 11[ ] instructs that not every violation of its
terms calls for reversal of conviction by entitling
the defendant to withdraw his guilty plea. "A
variance from the requirements of this rule is
harmless error if it does not affect substantial
rights." Fed. Rule Crim. Proc. 11(h).
In [United States v. Vonn, 535 U.S. 55, 122 S. Ct.
1043, 152 L. Ed. 2d 90 (2002)], we considered the
standard that applies when a defendant is dilatory
in raising Rule 11 error, and held that reversal is
not in order unless the error is plain. 535 U.S., at
63, 122 S. Ct. 1043; see [United States v. Olano,
507 U.S. 725, 731-37, 113 S. Ct. 1770, 1778, 123 L.
Ed. 2d 508 (1993)] . Although we explained that in
assessing the effect of Rule 11 error, a reviewing
court must look to the entire record, not to the plea
proceedings alone, Vonn, supra, at 74-75, 122 S.
Ct. 1043, we did not formulate the standard for
determining whether a defendant has shown, as
the plain-error standard requires, Olano, supra, at
734-735, 113 S. Ct. 1770, an effect on his
substantial rights.
It is only for certain structural errors undermining
the fairness of a criminal proceeding as a whole
that even preserved error requires reversal
without regard to the mistake's effect on the
proceeding. See Arizona v. Fulminante, 499 U.S.
279, 309-310, 111 S. Ct. 1246, 113 L.Ed.2d 302
(1991) (giving examples).

16A
United States v. Dominguez Benitez, 542 U.S. 74,
80-81, 124 S. Ct. 2333, 159 L. Ed. 2d 157 (2004)
(section
heading
omitted).
And
judicial
participation in plea negotiations in violation of
Rule 11(c)(1) is not structural error. See United
States v. Davila, 569 U.S. 597, 610-11, 133 S. Ct.
2139, 186 L. Ed. 2d 139 (2013); United States v.
Dominguez, No. 17CR336-LAB-7, 2019 U.S. Dist.
LEXIS 65176, 2019 WL 1641145, at *4 (S.D. Cal.
Apr. 16, 2019) ("Under Rule 11(c)(1), the Court
must not participate in discussions leading to plea
agreements. Violation of this rule is not structural
error[.]" (citing Davila, 569 U.S. at 611)). Because
a transcript of the entire hearing is available, no
evidentiary hearing is needed to confirm what took
place.
Thus, Petitioner must make some showing that he
was negatively affected by the alleged Rule
11(c)(1) participation violation in this case. That
leads to the next question: what kind of showing is
required under the circumstances in this case, i.e.,
where the alleged Rule 11(c)(1) violation was not
raised either in the district court (for example, in
a pre-sentencing motion to withdraw the guilty
plea) or an appeal.
To answer that question, the Court first notes that
any claim of a Rule 11 violation can be raised on
direct appeal and is procedurally defaulted if it is
not. Martin v. United States, 160 F. App'x 447, 449
(6th Cir. 2005) (holding, where defendant brought
a Section 2255 claim based on an alleged Rule 11

17A
violation but did not assert such claim on direct
appeal, the claim was procedurally defaulted).
This applies to Rule 11(c)(1) violations just as with
other Rule 11 violations. United States v.
Magallanes, 10 F. App'x 778, 783 (10th Cir. 2001)
(holding that defendant procedurally defaulted on
his Rule 11(c)(1) claim by failing to raise it on
direct appeal); Premachandra v. United States,
101 F.3d 68, 69 (8th Cir. 1996) (holding that
because claim of Rule 11(c)(1) violation "was not
raised on direct appeal [it] is therefore
procedurally defaulted.").
To obtain relief under Section 2255 based on errors
that were not raised on direct appeal, a petitioner
"must show both (1) 'cause' excusing his double
procedural default, and (2) 'actual prejudice'
resulting from the errors of which he complains."
United States v. Frady, 456 U.S. 152, 167-68, 102
S. Ct. 1584, 71 L. Ed. 2d 816 (1982). This standard
is "a significantly higher hurdle than would exist
on direct appeal." Id. at 166. A Section 2255
petitioner does have an alternative to meeting this
high hurdle: showing actual innocence. Bousley v.
United States, 523 U.S. 614, 623, 118 S. Ct. 1604,
140 L. Ed. 2d 828 (1998) (noting that a defendant
may alternatively obtain relief under Section 2255
based on errors not raised on direct appeal if he
demonstrates actual innocence) (citing Murray v.
Carrier, 477 U.S. 478, 488, 106 S. Ct. 2639, 91 L.
Ed. 2d 397 (1986)).

18A
More recently, the Sixth Circuit has made clear
the requirements for a Section 2255 petitioner to
obtain relief based on a procedurally defaulted
claim.
Because [the petitioner, Martin] did not raise his
claim of a claim on direct appeal, it is procedurally
defaulted and we may not entertain the claim
unless Martin can show cause for the default and
prejudice stemming from it or can show that he is
actually innocent of the crime.
Martin, 160 F. App'x at 449; see also id. ("Both
before and after [Dominguez] Benitez, we have
required claimants to demonstrate actual
innocence or both cause and prejudice when
raising procedurally defaulted claims in a § 2255
motion.")
The instant case is like Martin not only with
respect
to
the
applicable
(alternative)
requirements for obtaining relief, but also with
respect to the only possible avenue for satisfying
those requirements:
Martin does not make any claim of actual
innocence. And the only conceivable source of the
default is ineffective assistance of counsel. See,
e.g., Henderson v. Collins, 262 F.3d 615, 636 (6th
Cir. 2001) (recognizing that ineffective assistance
of counsel may constitute cause for a procedural
default).

19A
Id; see also Holladay v. Haley, 209 F.3d 1243, 1254
(11th Cir. 2000) ("Constitutionally ineffective
assistance of counsel can constitute cause" under
Frady). "In order to do so, however, the claim of
ineffective assistance must have merit." United
States v. Nyhuis, 211 F.3d 1340, 1344 (11th Cir.
2000).
Petitioner does not claim actual innocence, and
any such claim would have been frivolous anyway,
given his admission of his crimes in his signed plea
agreement, at his plea hearing, and at sentencing.
Thus, Petitioner must establish cause and
prejudice for the procedural default, which could
only be ineffective assistance of counsel
(hereinafter, "IAC").
And indeed, Petitioner does complain about his
counsel's alleged ineffectiveness in failing to
advise him that the alleged Rule 11(c)(1)
participation violation was a valid ground for
appeal.
Petitioner
states
such
alleged
ineffectiveness as a separate ground for relief
("Ground Two") on the Petition, and not as ground
to excuse his procedural default on Ground One; in
fact, Petitioner does not expressly offer any excuse
for defaulting on Ground One. Nevertheless, the
Court will construe such allegation of IAC as an
alleged ground for excusing his procedural default.
The standard for IAC in the context of excusing
procedural default is the familiar standard of
Strickland. See Greene v. United States, 880 F.2d
1299, 1305 (11th Cir. 1989). Thus, the issue is

20A
whether trial counsel's performance fell below the
wide
range
of
professionally
competent
representation. Id.
One district court, addressing a procedurally
defaulted claim (one based on an alleged Fourth
Amendment
violation),
relatively
recently
explained in concise fashion the role of an IAC
claim in a Section 2255 petitioner's attempt to
excuse procedural default.
Ineffective assistance of counsel may satisfy the
cause exception to a procedural bar, but only if the
claim of ineffective assistance is meritorious.
Greene, 880 F.2d at 1305. This may turn on the
merits of the underlying freestanding claim.
Assuming [the petitioner] were to assert
ineffective assistance of counsel as cause for his
failure to present a freestanding Fourth
Amendment claim on direct appeal, he fails to
show that his Fourth Amendment claim is
meritorious.
Millender v. United States, No. 1:16CV45-MHT,
2018 U.S. Dist. LEXIS 40096, 2018 WL 1555653,
at *9 (M.D. Ala. Mar. 9, 2018), report and
recommendation adopted, No. 1:16CV45-MHT,
2018 U.S. Dist. LEXIS 52480, 2018 WL 1546364
(M.D. Ala. Mar. 29, 2018). Thus, it is simply not
deficient performance for counsel to omit nonmeritorious claims on appeal. See Davis v. United
States, No. 1:12-CR-362-CAP, 2015 U.S. Dist.

21A
LEXIS 139338, 2015 WL 5944280, at *4 (N.D. Ga.
Oct. 13, 2015); Laguerre v. United States, No. 0420487-CR, 2010 U.S. Dist. LEXIS 67744, 2010 WL
2402898, at *15 (S.D. Fla. Jan. 12, 2010) (holding
that if there would have been no merit to the
underlying issue, the petitioner "cannot establish
deficient performance or prejudice arising from
counsel's failure to further pursue this issue"),
report and recommendation adopted, No. 0820413-CIV, 2010 U.S. Dist. LEXIS 60308, 2010
WL 2402912 (S.D. Fla. May 28, 2010). And as set
forth below, any appeal by Petitioner based on an
alleged Rule 11(c)(1) participation violation would
have been without merit.
The Court first notes that for Petitioner to have
achieved vacatur on appeal based on the alleged
Rule 11(c)(1) participation violation, he would
have need to do more than merely establish the
violation (which the Court herein is assuming
arguendo he would have done), because such
violation is not automatically grounds for relief on
direct appeal. Instead:
Rather than automatically vacating [the
petitioner's] guilty plea because of the Rule
11(c)(1) violation, the Court of Appeals [w]ould
have considered whether it was reasonably
probable that, but for the [District] Judge's
exhortations, [the petitioner] would have exercised
his right to go to trial. In answering that question,
the [District] Judge's comments should be

22A
assessed, not in isolation, but in light of the full
record.
Davila, 569 U.S. at 612. Here, referring to the
comments of the district judge constituting the
alleged Rule 11(c)(1) participation violation,
Petitioner himself avers:
10. When Judge Trauger said these things in
Court, I interpreted it point blank as meaning that
I needed to cut some kind of deal right now.
11. After I walked out of the courtroom I remember
telling Strianse, "Damn, she pretty much told me
that I needed to plead to something." In response,
Strianse said that "they are pushing to get this
done. They are down one judge and she is
overbooked." I also recall Strianse saying that the
judge knew the trial would last weeks and was
trying to avoid that.
12. The judge's comments during the December 29,
2017, hearing is what caused me to agreed to plead
guilty. Up until that point I had steadfastly
insisted that I was innocent and wanted to go to
trial.
13. However, after hearing the judge's comments,
I felt that I had no real choice but to plead guilty.
So I did so very reluctantly.
(Doc. No. 1-1 at ¶¶ 10-13). Petitioner's current
attorney has since argued, in a more qualified

23A
manner, that "[t]here is a reasonable probability
that but for the Court's comments, Posey would
have insisted on going to trial." (Doc. No. 1 at 4).
As noted above, this is the applicable appellate
standard. So if the Sixth Circuit would have
agreed with Petitioner on this, in the case of a
hypothetical appellate claim of a Rule 11(c)(1)
participation violation, then Petitioner might be
entitled to relief under Section 2255.
But no reasonable appellate court even
conceivably would have credited Petitioner's selfserving averments, or even have concluded less
definitively that there was at least a reasonable
probability that but for the district judge's
comments, Petitioner would not have pled guilty.
Petitioner's position is utterly belied by the full
record in this case. To begin with, as set forth
above in considerable detail, Petitioner's (a) signed
plea agreement; and (b) statements under oath at
the plea hearing (including statements confirming
his acceptance and understanding of the plea
agreement) are entirely clear that his decision to
plead guilty was his own choice, one made
voluntarily and not as the result of any pressure
(whether from the district judge, his own counsel,
or anybody else). Petitioner may think it
convenient to change his tune now even though,
whether he realizes it or not, his new tune
suggests the possibility that he perjured himself at
his plea hearing. The Court is loath to conclude
that he did so, rather than presuming that he was
being truthful at the time of making his sworn

24A
statements at the plea hearing. And the Court is
entitled to rely on those statements, rather than
contrary assertions made only substantially later.
As the Government puts it:
"A defendant's solemn declarations in open court
affirming a plea agreement 'carry a strong
presumption of verity,' because courts must be
able to rely on the defendant's statements made
under oath during a properly conducted Rule 11
plea colloquy." Lemaster, 403 F.3d at 221. "Where
a 'defendant testified at his plea hearing that he
had reviewed the plea agreement with counsel,
that he understood all of the agreement's
provisions, and that his guilty plea was not
coerced,' and 'there [was] nothing in the record to
suggest that [the] defendant misunderstood the
scope of his waiver of appellate rights,' [a court]
'can only conclude that [the] defendant entered his
plea agreement—and accepted the waiver of
appellate rights contained therein—knowingly
and voluntarily." United States v. Crumpler, 393
F. App'x 321, 326 (6th Cir. 2010) (quoting [United
States v. Calderon, 388 F.3d 197, 200 (6th Cir.
2004)]). This requirement stems from the fact that
"[a] defendant's solemn declarations in open court
affirming a plea agreement 'carry a strong
presumption of verity,' because courts must be
able to rely on the defendant's statements made
under oath during a properly conducted Rule 11
plea colloquy." United States v. Lemaster, 403 F.3d
216, 221 (4th Cir. 2005) (quoting [Blackledge v.

25A
Allison, 431 U.S. 63, 74, 97 S. Ct. 1621, 52 L. Ed.
2d 136 (1977)], further quotations, citations, and
alterations omitted).
"Thus, in the absence of extraordinary
circumstances, . . . allegations in a § 2255 motion
that directly contradict the petitioner's sworn
statements made during a properly conducted
Rule 11 colloquy are always 'patently incredible'
and 'patently frivolous or false'" for purposes of
determining whether there is any need for an
evidentiary hearing. Id. In the absence of such
extraordinary circumstances, "the truth of sworn
statements made during a Rule 11 colloquy is
conclusively established, and a district court
should, without holding an evidentiary hearing,
dismiss any § 2255 motion that necessarily relies
on allegations that contradict the sworn
statements." Id. at 221-22. "Otherwise, a primary
virtue of Rule 11 colloquies would be eliminated—
'permit[ting] quick disposition of baseless
collateral attacks.'" Id. at 222 (quoting Blackledge,
431 U.S. at 79 n.19.)
(Doc. No. 11 at 14-15). On this topic, the
Government has it right. A district court must be
able to rely on a defendant's sworn statements at
a plea hearing conducted pursuant to Fed. R. Crim
P. 11, and for this reason (among others) they
carry a strong presumption of veracity. Indeed, a
court conducts a plea colloquy precisely to make
sure that nothing improper—including things like
a
Rule11(c)(1)
participation
violation—is

26A
prompting a defendant to plead guilty; if
something inappropriate is influencing the
defendant's decision to plead guilty, then the court
can ferret it out before defendant pleads. District
courts do this important work whenever they are
considering a plea of guilty under Rule 11, but to
do it fruitfully, they need the pleading defendant
to do his or her part by telling the truth when
asked about these things. A defendant may not be
permitted to hold back purported concerns about
alleged improper influences that would be
disclosed by a candid answer to the district court's
questions inquiring about such matters, only to
later raise them when things do not work out at
sentencing as hoped by the defendant. The
undersigned will not permit or incentivize such
sandbagging.
Absent very good reason to do so, the Court will
not allow a petitioner to create a factual issue on a
Section 2255 motion via the simple expediency of
claiming (once it suits the petitioner's desire) that
his prior sworn statements were actually plain old
false. And in this case, there is no reason to believe
that, contrary to what Petitioner said in his plea
agreement and plea hearing—confirming the
voluntary, unpressured, fully advised and fully
counseled nature of his plea of guilty—a
reasonable probability exists that he actually
would not have pled guilty but for the district
judge's alleged Rule 11(c)(1) participation
violation.

27A
Significantly, no such reason is provided by the
timing of his guilty plea. It was hardly years or
even months removed from the alleged violation on
December 29, 2017, but it was 18 days later. With
almost three weeks in the interim, there is no
reason to think that his plea of guilty was some
knee-jerk reaction to the district judge's
comments, made reflexively out of fear. The record
suggests, instead, that in this 18-day period his
counsel negotiated a plea agreement that
Petitioner could live with, and that this is why
Petitioner pled guilty.
Nor is any such reason provided by the affidavit of
his counsel filed by the Government. At least by
implication, it contradicts the gist of Petitioner's
claims by very much downplaying the nature and
effect of the district judge's comments regarding
plea negotiations. (Doc. No. 11-1 ¶ 6). And
Petitioner's counsel's affidavit certainly provides
no support at all for the proposition that Petitioner
was influenced to plead guilty by those comments.
Nor is any such reason provided by some apparent
weakness in the Government's case that would
suggest that Petitioner naturally would have been
inclined to go to trial. The record reflects that
Petitioner was in fact guilty and knew he was
guilty, and that it was publicly available
information that his ex-wife (also his coconspirator) was prepared to testify against him.
This state of affairs makes it impossible for the
Court to disregard Petitioner's own sworn
statements and instead embrace Petitioner's

28A
uncorroborated new claim—unsupported and
implicitly contradicted by his own counsel—that
he likely would have taken his chances at trial but
for the alleged Rule 11(c)(1) participation
violation.
In short, nothing supports Petitioner's self-serving
claim. The Court can and does treat it as raising
only a patently incredible claim, one that can and
should be rejected without an evidentiary hearing.
See Amr, 280 Fed. Appx. at 485 ("Stated another
way, the court is not required to hold an
evidentiary hearing [because] the petitioner's
allegations cannot be accepted as true because
they are contradicted by the record [and]
inherently incredible[.]")
The Court also would be remiss if it did not take
aim at Petitioner's implication that he was
innocent and that part of the problem here with
the allegedly flawed guilty plea is that it caused an
innocent man to be found guilty. Petitioner's
referenced prior "steadfast[ ] insiste[nce]" upon his
"innocen[ce]" appears to be an insistence upon his
actual innocence, rather than an insistence that
the Government could not prove him guilty beyond
a reasonable doubt. The former (affirmative
protestations of innocence) is something very
difference from the latter (defensive insistence
that the Government must be put to its burden of
proof at trial and will ultimately fail to meet that
burden). The latter is always appropriate and
never "wrong," but the former can be very wrong

29A
indeed; a defendant's affirmative protestations
that he is actually innocent can be false, wrong,
perjurious (if knowingly wrong and asserted under
oath) and just plain nonsense. And the record is
entirely clear that any affirmative insistence by
Petitioner that he was actually innocent: (a) is
wrong, period; and (b) if it had been true, would
have meant that he gave all kinds of false (and
possibly perjurious) answers to the district judge
at his plea hearing.
To the extent that Petitioner complains that the
district judge's comments caused him to drop his
"steadfast" (but patently wrongheaded) insistence
that he was actually innocent, they served only to
deter him from continuing to engage in and
embrace a falsehood. The Court fails to see how
these comments harmed, or even conceivably could
have harmed, Petitioner by dissuading him from
what was either a lie or a delusion. And it was
likely a lie or delusion harmful to his defense,
because it was one he asserted with his own
counsel from the outset. (Doc. No. 1-1 at ¶ 3). To
the extent that Petitioner wonders why he, in his
view, did not get a good result in this case or
effective assistance of counsel, he might focus on
his own actions, especially his poor decision to
continuously assert with his counsel the vital
falsity that "he was innocent of the charges." (Id.).
In short, it is perfectly appropriate for Petitioner
to claim that his guilty plea should be vacated
because of the alleged Rule 11(c)(1) participation
violation and that his guilt instead must be

30A
established at trial by the Government. But any
sanctimonious claims of actual innocence will not
be countenanced at this stage by this Court. The
time to claim actual innocence has long passed.
To be clear, Petitioner's complaint about being
dissuaded from going to trial is another matter. As
noted above, it is always appropriate for any
defendant (whether or not actually innocent) to
insist on putting the Government to its burden of
proof at trial; every defendant has a due process
right to do so, and it is vital that a defendant (no
matter his or her guilt or innocence) not be
improperly dissuaded from going to trial. So the
Court does not begrudge Petitioner complaining
that he was improperly dissuaded from going to
trial. The problem, however, is that, this complaint
is entirely belied by the record in this case, as
noted above.
Thus, there would have been no merit to a claim
on appeal asserting a Rule 11(c)(1) participation
violation. "Because [Petitioner] fails to prove the
merits of his freestanding claim, he fails to show
that
his
ineffective-assistance
claim
is
meritorious. Therefore, the alleged ineffective
assistance of his counsel does not constitute cause
excusing his procedural default arising from his
failure to advance a freestanding [Rule 11(c)(1)]
claim on direct appeal. He is not entitled to § 2255
relief on this claim." Millender, 2018 U.S. Dist.
LEXIS 40096, 2018 WL 1555653, at *11. See also
Premachandra, 101 F.3d at 69 ("Premachandra

31A
makes no showing of cause and prejudice that
would excuse his procedural default. Therefore, §
2255 relief is barred.").
To the extent that Petitioner would now claim that
Ground One encompasses a more general claim
that his plea of guilty was overall involuntary—as
opposed to merely the result of a Rule 11(c)(1)
participation violation—such claim faces the same
insurmountable obstacles as does the claim based
specifically on the Rule 11(c)(1) participation
violation. As the Sixth Circuit explained in Swain
v. United States, 155 F. App'x 827 (6th Cir. 2005):
Because she did not raise it (or its equivalent) on
direct review, the claim of involuntariness has
been procedurally defaulted. Bousley[, 523 U.S. at
621] ("[E]ven the voluntariness and intelligence of
a guilty plea can be attacked on collateral review
only if first challenged on direct review."). To
overcome procedural default, Swain must show
cause and prejudice, or actual innocence. Id. at
622-23, 118 S. Ct. 1604. She has not.
Id. at 830.6 Petitioner can make neither showing,
because the record conclusively establishes that
his plea of guilty was voluntary. Thus, any failure
to raise a claim of involuntariness on appeal would
have failed, and thus failure to raise it would not
have constituted IAC. So it is clear, without need
of an evidentiary hearing, that there is no cause or
prejudice from IAC necessary to excuse this
procedural default.

32A
II. GROUND TWO
In Ground One, Petitioner raises what is really the
same claim the Court sua sponte, addressed above
as possible cause and prejudice for the procedural
default on Count One, i.e., a particular claim of
ineffective assistance of counsel. Petitioner claims
that his "counsel was ineffective for failing to
consult with Posey about an appeal," since
Petitioner "had a non-frivolous ground for
appeal—the Court's improper participation in plea
discussions in violation of Rule 11(c)(1) . . . and
would have appealed had he been properly
advised." (Doc. No. 1 at 5). He claims that this
ground constituted a non-frivolous issue for appeal
and therefore satisfies Petitioner's burden to show
prejudice. (Doc. No. 10 at 9-10).
But just as this claim of IAC failed to establish
cause or prejudice for the procedural default on
Ground One, it fails as an independent ground for
relief. The Court grants that Petitioner had a nonfrivolous claim that there was a Rule 11(c)(1)
participation violation. Nevertheless, a claim for
relief on appeal based on such alleged violation
would have been frivolous. As discussed above in
detail, Petitioner would have had to show the
Sixth Circuit that it was reasonably probable that,
but for the district judge's comments, he would
have exercised his right to go to trial. And this
would have been a non-starter. On the record that
would have been before the Sixth Circuit, as

33A
discussed above, there is no chance it would have
found such reasonable probability. Therefore,
Ground Two clearly fails, and no evidentiary
hearing is required to dispose of it.
CONCLUSION
For the reasons set forth above,8 the Court rejects
each of Petitioner's two grounds for relief without
need of an evidentiary hearing.
An appropriate order dismissing the Petition shall
be issued.
/s/ Eli Richardson
ELI RICHARDSON
UNITED STATES DISTRICT JUDGE

34A

APPENDIX B
United States Court of Appeals
FOR THE
SIXTH CIRCUIT
Posey v. United States
October 30, 2020, Filed
No. 20-5745
ORDER
Bart Sidney Posey, Sr., a federal prisoner
proceeding through counsel, appeals a district
court's judgment denying his 28 U.S.C. § 2255
motion to vacate, set aside, or correct sentence. He
has applied for a certificate of appealability
("COA"). See Fed. R. App. P. 22(b).
In 2013, a grand jury indicted Posey and others on
dozens of charges related to the sale of fraudulent
health-insurance policies. More than four years
later, at a pre-trial conference on December 29,
2017, the government informed the district court
that Posey had rejected a plea offer the week
before. The court asked if there was "anything that
the Court could rule on or anything else that would
change the landscape such that there might be
more fruitful discussions?" After both sides
expressed their willingness to negotiate, defense

35A
counsel explained that Posey had not approved
any suggested counterproposals. Commenting
that Posey's behavior was short-sighted, the court
reminded Posey of the statutory maximum
penalties and that co-conspirators would be
testifying against him.
A few weeks later, on January 16, 2018, Posey filed
a petition to enter a plea of guilty, in which he
acknowledged that counsel had estimated a
sentencing guidelines range of 168 to 210 months
in prison. Posey also entered into a written
agreement that day and pleaded guilty to one
count of mail fraud, in violation of 18 U.S.C. §
1341, and one count of embezzlement from a
health-care-benefit program, in violation of 18
U.S.C. § 669, in exchange for the dismissal of
thirty-five other counts. The agreement contained
a waiver of his right to challenge his convictions
and sentence on direct appeal or in a collateral
attack on any ground other than claims of
involuntariness, prosecutorial misconduct, or
ineffective assistance of counsel. At the sentencing
hearing on November 20, 2018, Posey's guidelines
range was calculated as 188 to 235 months in
prison. The district court varied downwards and
ordered Posey to serve 168 months in prison and 3
years of supervised release and to pay
$6,524,888.86 in restitution. Posey did not file a
direct appeal.
In his § 2255 motion, Posey asserted that: (1) his
guilty plea was induced by improper judicial

36A
participation in plea negotiations in violation of
Federal Rule of Criminal Procedure 11(c)(1) and
his right to due process; and (2) trial counsel
rendered ineffective assistance by failing to
consult with him about an appeal. In his affidavit,
Posey stated that he felt coerced to plead guilty
despite his innocence because of the judge's
comments at the pre-trial hearing, that counsel
said he had "never dreamed she would give the
sentence she did," and that he would have
instructed counsel to appeal if counsel had
explained that the judge's comments were a basis
to do so.
The government filed a response in opposition,
arguing that Posey's claims were waived,
procedurally defaulted, and/or lacked merit. In an
attached affidavit, defense counsel stated that the
judge's comments were not unusual, that Posey
had authorized plea negotiations prior to the pretrial conference, and that Posey had never directed
him to file an appeal in the three times that they
had met after sentencing. Posey filed a reply,
arguing that an evidentiary hearing was required.
After denying the request for an evidentiary
hearing, the district court concluded that the Rule
11 claim was procedurally defaulted and that the
claim of ineffective assistance lacked merit. The
court declined to issue a COA.
In his COA application, Posey reasserts his claim
that counsel rendered ineffective assistance by
failing to consult with him on appeal when there

37A
was a non-frivolous ground for appeal—the district
court's allegedly improper participation in plea
discussions in violation of Rule 11(c)(1). He has
abandoned his first claim, the substantive issue
regarding the trial judge's alleged violation of Rule
11(c)(1), by not raising it in his COA application.
See Elzy v. United States, 205 F.3d 882, 886 (6th
Cir. 2000).
An individual seeking a COA is required to make
a substantial showing of the denial of a federal
constitutional right. See 28 U.S.C. § 2253(c)(2). "A
petitioner
satisfies
this
standard
by
demonstrating that jurists of reason could
disagree with the district court's resolution of his
constitutional claims or that jurists could conclude
the issues presented are adequate to deserve
encouragement to proceed further." Miller-El v.
Cockrell, 537 U.S. 322, 327, 123 S. Ct. 1029, 154 L.
Ed. 2d 931 (2003).
To demonstrate ineffective assistance of counsel, a
defendant must show that counsel rendered
deficient performance that caused prejudice.
Strickland v. Washington, 466 U.S. 668, 694, 104
S. Ct. 2052, 80 L. Ed. 2d 674 (1984). Reasonable
representation includes a "duty to consult with the
defendant about an appeal" if "a rational
defendant would want to appeal (for example,
because there are nonfrivolous grounds for
appeal)" or if the defendant reasonably
demonstrated an interest in appealing. Roe v.

38A
Flores-Ortega, 528 U.S. 470, 480, 120 S. Ct. 1029,
145 L. Ed. 2d 985 (2000).
Posey's claim does not deserve encouragement to
proceed further. He does not allege that he
expressed an interest in appealing, but that
counsel did not consult with him despite the
existence of a nonfrivolous ground for appeal.
Posey's own affidavit belies his allegation that
counsel did not consult with him about an appeal.
Posey stated that counsel met with him after
sentencing (1) in the courthouse and "said the only
way I could appeal is if someone 'made me' plead
guilty, like if someone put a gun to my head"; and
(2) at the jail where counsel "mentioned a 2255
motion as an option" to get out of the plea
agreement.
Furthermore, the alleged Rule 11 violation was not
a nonfrivolous ground for appeal. As the district
court reasoned, a judge's comment about the
desirability of plea negotiations is not the same as
a judge's participation in the actual negotiations.
Even assuming for the sake of argument that the
judge's comments were in violation of Rule 11, the
claim is still frivolous. Because a Rule 11(c)(1)
violation does not constitute structural error, a
reviewing court must determine whether, in light
of the full record, there was a reasonable
probability that the defendant, but for the judge's
comments, would have exercised his right to go to
trial. United States v. Davila, 569 U.S. 597, 611612, 133 S. Ct. 2139, 186 L. Ed. 2d 139 (2013). Non-

39A
exhaustive factors to consider include whether the
defendant swore under oath that his plea was not
coerced, whether the defendant moved to
withdraw his guilty plea and why; whether the
guilty plea occurred on the heels of the Rule
11(c)(1) violation; whether the judge who
committed the violation conducted the plea
colloquy; and whether the final plea offer by the
government was significantly more favorable than
the initial plea offer. United States v. Ushery, 785
F.3d 210, 221 (6th Cir. 2015).
Although the same judge presided over the pretrial hearing and the plea colloquy, other Ushery
factors establish that there was no reasonable
probability that Posey would have exercised his
right to trial. Posey's statements in his signed plea
agreement as well as his statements made under
oath at his plea hearing indicated that he had
pleaded guilty voluntarily and not due to pressure
or threats. Posey did not move to withdraw his
guilty plea during the ten months between his
guilty plea and the imposition of his sentence. And
his guilty plea did not occur immediately after the
judge's comments but eighteen days later, after he
had attended a second pre-trial hearing, filed
notice of a defense, and defense counsel negotiated
an acceptable plea agreement. Thus, Posey has not
made a substantial showing that trial counsel
rendered ineffective assistance.
Accordingly, the court DENIES Posey's COA
application.

